Attorneys for Respondents
Robert E. Mangels
Matthew D. Hinks
Jeffer, Mangels, Butler & Marmaro LLP
1900 Avenue of the Stars
7th Floor
Los Angeles, CA 90067-4308
Phone: (310) 203-8080
mhinks@jmbm.com
Counsel for Respondent and Real Party in Interest Religious Technology Center

William H. Forman
Counsel of Record
Margaret E. Dayton
Winston & Strawn LLP
333 South Grande Avenue
38th Floor
Los Angeles, CA 90071
Phone: (213) 615-1700
wforman@winston.com
Counsel for Respondent and Real Party in Interest Church of Scientology International

Jeffrey K. Riffer
Elkins Kalt Weintraub Reuben Gartside LLP
10345 West Olympic Blvd.
Los Angeles, CA 90064
Phone: (310) 746-4400
jriffer@elkinskalt.com
Attorneys for David Miscavige

